               U.S. DEPARTMENT OF THE INTERIOR
                 OFFICE OF INSPECTOR GENERAL




      PROGRAM ASSESSMENT RATING TOOL
           PROGRESS EVALUATION

         BUREAU OF LAND MANAGEMENT
         LAND USE PLANNING PROGRAM




Y-RR-BLM-0005-2007                    FEBRUARY 2008
                                BUREAU OF LAND MANAGEMENT
                                    LAND USE PLANNING

                                              TABLE OF CONTENTS

Introduction

         Why We Did This Progress Evaluation........................................................... 1
         Objectives and Methodology ........................................................................... 1
         Overview — BLM’s Land Use Planning Program ........................................ 2
         OMB’s 2005 PART Assessment .................................................................... 4

Observations and Suggestions

         Progress on OMB’s First Improvement Plan Action ...................................... 5
         Progress on OMB’s Second Improvement Plan Action .................................. 8
         Additional Opportunities for Improvement ..................................................... 9

Summary .................................................................................................................. 13

Appendices

         Appendix A: History and Use of the PART
         Appendix B: Bureau of Land Management Table of Organization
         Appendix C: BLM Resource Management Plans — Required Steps for
                     New Plans, Revisions, and Amendments
         Appendix D: PART Questions That Elicited a “NO” Answer




                                                   ON THE COVER

  Map of public lands managed by the BLM. Yellow areas indicate BLM managed lands in the western
 United States. In the eastern United States, the BLM manages 39.7 million acres of subsurface mineral
    estate and 30,000 acres of surface, mostly small isolated parcels scattered throughout 31 States.
                                                                                           Source: BLM.
                 ACRONYMS

AIM     Assessment Inventory and Management
AMS     Analysis of Management Situation
BLM     Bureau of Land Management
DOI     Department of Interior
EIS     Environmental Impact Statement
FLPMA   Federal Land Policy Management Act of 1976
GPRA    Government Performance and Results Act of 1993
NEPA    National Environmental Policy Act of 1969
NOI     Notice of Intent
NOA     Notice of Availability
OIG     Office of Inspector General
OMB     Office of Management and Budget
PART    Program Assessment Rating Tool
RAC     Resource Advisory Council
RMP     Resource Management Plan
RND     Results Not Demonstrated
                                     INTRODUCTION

WHY WE DID THIS PROGRESS EVALUATION
The Deputy Secretary of the Department of the Interior        WHAT IS THE PART?
(DOI) asked the Office of Inspector General (OIG) to
evaluate the progress made by programs designated             Federal agencies use the
Results Not Demonstrated (RND). OMB uses the                  Program Assessment Rating
Program Assessment Rating Tool (PART) to make these           Tool (PART), a standard
designations.                                                 questionnaire, to submit
                                                              information on federal
In discussions with officials in the DOI Office of Budget     programs to the Office of
and the DOI Office of Planning and Performance                Management and Budget
Management, we considered each DOI program in RND             (OMB). OMB examiners assess
status and a number of factors, such as each program’s        programs based on responses to
budget and how long each program has been in the Results      YES/NO questions in the areas
Not Demonstrated category. We selected the Bureau of          of program purpose and design,
Land Management (BLM), Land Use Planning Program              strategic planning, program
(referred to as the Program) for this progress evaluation.    management, and — most
                                                              importantly — program results.
The Land Use Planning Program is administered through
BLM’s Division of Planning and Science Policy. See            OMB uses the information to
Appendix B for a simplified table of organization.            determine program
                                                              effectiveness, to recommend
OBJECTIVES AND METHODOLOGY                                    improvements for rated
                                                              programs, and to follow up on
OMB reviewed the Program in 2005 and recommended              those improvements.
that BLM officials develop new performance measures, as
well as an agency-wide monitoring strategy. Our               The ExpectMore.gov Web site
objectives were to determine the Program’s progress           publishes PART results. See
toward implementing these two recommendations and to          Appendix A for more
provide suggestions that Program officials could use in       information on the history and
improving the Program.                                        use of the PART.

To meet these objectives, we interviewed Bureau officials,
Department officials, and the OMB examiner responsible for assessing BLM programs. We
reviewed and analyzed Program documentation, reviewed performance measurement and
program evaluation literature, and reviewed applicable laws governing land use, land use
planning, and environmental policy. Also, we attended a briefing by officials from BLM’s
Arizona State Office on their Resource Management Plan (RMP) implementation and budget
strategy pilot program. We conducted our evaluation in accordance with the “Quality Standards
for Inspections” established by the President’s Council on Integrity and Efficiency and we based
the suggestions presented in this report on OMB’s 2007 PART guidance.
OVERVIEW:
BLM’S LAND USE PLANNING PROGRAM
The Bureau of Land Management’s mission is to sustain the
health, diversity and productivity of public lands for the use
and enjoyment of present and future generations. BLM
manages more than 250 million surface acres of public lands
and 700 million acres of subsurface mineral estate. These
lands contain a myriad of resources and provide for a variety
of the Nation’s needs, including outdoor recreation, domestic
energy production, wildlife habitat, livestock grazing, timber,
and other natural, cultural, and historical resources.                        BLM Logo
Activities managed or permitted by BLM are important sources of revenue for the U.S. Treasury.
For example, royalties collected from energy leasing, fees collected for the issuance of grazing
permits, and the proceeds from the sale of timber all serve to benefit the taxpayer. In 2008,
public lands are projected to generate an estimated $4.5 billion in revenues, mostly from energy
development.

                                     According to BLM officials, rapid population growth in the
 WHAT IS FLPMA?                      West has resulted in increased, and sometimes competing,
                                     demands for public land resources. BLM utilizes a complex
 The Federal Land Policy and         land use planning process to address competing demands for
 Management Act of 1976              use of public lands, and to maintain an appropriate balance
 (FLPMA) requires a                  between land use and resource protection. Through the
 systematic approach to land         planning process, BLM officials work to ensure that public
 use planning which considers        lands are managed in accordance with the Federal Land
 present and potential uses of       Policy and Management Act of 1976 (FLPMA) and the
 public lands based on               National Environmental Policy Act of 1969 (NEPA). The
 principles of multiple use and      result of the process is a set of land use plans, referred to as
 sustained yield.                    resource management plans (RMPs), which guide decisions
                                     for every action and approved use on public lands.

                                     RMP development and implementation, and monitoring of
 WHAT IS NEPA?                       RMP effectiveness, are largely decentralized activities.
                                     Although most planning activities occur at the field level,
 The National Environmental          individuals throughout the organization are involved, as
 Policy Act of 1969 (NEPA)           reflected in Table 1. BLM field managers utilize RMPs and
 establishes a public,               develop RMP implementation strategies to establish and
 interdisciplinary framework         follow through on specific land management decisions and
 for Federal decision-making to      practices needed to achieve desired resource conditions and
 ensure that all agencies            land use goals in keeping with BLM’s mission and the DOI
 consider environmental factors      Strategic Plan. BLM’s Washington Planning Office
 when planning or proposing          provides the field with technical support and policy
 Federal actions.                    guidance.


                                               -2-
Espousing an adaptive
management philosophy, BLM            Table 1. Planning Roles and Responsibilities
officials work to ensure that
RMPs and management
practices continue to address       Core Planning Participants     Plan Support and Approval
current environmental concerns
and meet the changing demands
for use of public lands. Since      Field Office Manager
the decisions reflected in RMPs         • Oversees planning
typically apply to a particular            projects
area for an indeterminate               • Recommends State
period, RMPs are periodically                                      Washington Office
                                           Director approval
amended to respond to concerns                                       • Ensures plan
of neighboring jurisdictions or                                          compliance with
                                    Planning Team Lead                   national policy
other stakeholders, or as new
                                       • Oversees work on            • Promotes consistency
requirements are necessitated
                                          plan                           across planning areas
by legislation, court decrees, or
                                       • Assembles                   • Approves Federal
changes in local environmental
                                          interdisciplinary team         Register notices
conditions. See Appendix C for
an outline of the required steps       • Encourages                  • Allocates funding for
for RMP revisions and                     stakeholder                    plans
                                          involvement
amendments.                                                          • Resolves protests
                                       • Point of contact
If BLM State offices and field            between core
managers are not able to keep             planning participants
RMPs updated through minor                and State Office
amendments, a major revision
may be required. BLM’s goal         Interdisciplinary Team
is to complete each major           (BLM)
                                                                   State Office
revision or new RMP within 4            • Writes sections of
                                           plan                       • Ensures quality
years. During the 2001-2004                                               control
timeframe, BLM had initiated            • Ensures stakeholder
                                           participation              • Director approves
as many as 20 new RMPs in a
                                                                      • Point of contact
given year. This resulted in
                                                                          between Washington
extended timelines as attention     Resource Advisory Council
                                                                          Office and Planning
and resources were spread over         • Provides                         Team Lead
as many as 80 plans in process.           recommendations to
                                          local field managers
To address this dilemma, BLM
did not start any new major         Other Non-BLM Plan
efforts in 2005, and since 2006     Participants                   Governor
has taken a more measured              • Supply information          • Reviews plan for
approach to the number of plans        • Attend meetings                 consistency
that can realistically be
                                       • Review drafts
completed. BLM officials now
plan to initiate approximately
                                                                                   Source: BLM

                                              -3-
7 to 10 new RMPs or major revisions per year. Additionally, some planning areas are being
consolidated, reducing the total number of required RMPs from approximately 160 a few years
ago to about 143 currently. Of these, officials tell us that approximately 40 revisions have been
completed since 2001; 60 are ongoing, and approximately 43 have yet to be initiated.

                       Table 2. Budget Summary ($ in millions)
                                                            FY2008                      Net
                                                Fixed                                 Change
        Program        FY2006      FY2007                  Program      Budget
                                                Cost                                   from
                                                           Changes      Request       FY2007
                                               Changes
       Resource
       Management      $49,527      $49,142     +$1,176     -$3,247     $47,071       -$2,071
       Planning
                                                          Source: BLM 2008 Budget Justifications


The Bureau’s Resource Protection and Maintenance budget activity funds BLM’s land use
planning and related compliance processes. As reflected in Table 2, the FY2008 budget request
for resource management planning is $47,071,000. Program changes include a decrease of
$111,000 in the streamlining of applied sciences and publishing services; a decrease of $136,000
in travel expenses; and a $3 million program decrease that would have the effect of bringing an
earlier projection of 14 RMP projects down to 9.

OMB’S 2005 PART ASSESSMENT
The results of the 2005 OMB PART assessment indicated that the Program has not been able to
develop acceptable performance goals or to collect data that demonstrated whether the Program
was performing effectively. BLM was unable to satisfy OMB requirements for 12 PART
questions, listed in Appendix D. All but two relate to performance measurement. In summary,
OMB observed the following:

   •    The program has a clear mission and goals, but lacks good measures tied to those goals.
   •    Regular monitoring is critical to ensuring that the agency is achieving its long-term land
        use plan goals.
   •    The Bureau often needs better data.

Based on these findings, OMB recommended an improvement plan for the Program that included
the following two actions:

   •    Develop new performance measures to assess the timeliness and implementation of land
        use plans; and
   •    Develop an agency-wide monitoring strategy to identify data gaps and coordinate the
        collection and reporting of key performance data. (The Bureau’s planning program is a
        key partner in this effort.)

                                                -4-
                        OBSERVATIONS AND SUGGESTIONS
We evaluated the Program in 2007 as a follow-up to the 2005 OMB PART review and have
observed progress toward implementing the actions requested in OMB’s improvement plan.
Early in our evaluation, we suggested to the OMB examiner that the scope of the Program was
not appropriate for a distinct PART score and rating. We based this suggestion on our
observation that environmental analyses and land use planning processes are integral to other
programs and sub-activities across BLM, each of which is subject to a separate PART review. In
executing other programs such as Resource Management, Recreation Management, and Energy
and Minerals Management, BLM managers rely on environmental analysis and land use
planning processes to support outcome goals. We concluded that Land Use Planning is not a
stand-alone program but rather a shared element spanning many BLM programs. OMB officials
initially did not agree with our assessment, so we continued our efforts to provide independent
viewpoints and to promote continued dialogue between the Land Use Planning staff and the
OMB examiner.

As our evaluation process was nearing its conclusion, we learned that OMB officials had
reconsidered their position and had come to agree with our initial assessment. They decided that
Land Use Planning did not warrant a PART review as a stand-alone Program. We believe the
rationale for not reassessing the Program using the PART actually heightens the need to manage
the Program effectively — Land Use Planning stands as the foundation for effective
management of many other BLM programs and activities. Consideration of our suggestions,
presented below, can therefore assist BLM officials in guiding the Program to more effectively
support BLM’s other mission-critical programs and activities.

PROGRESS ON OMB’S FIRST PROGRAM IMPROVEMENT PLAN ACTION:
Develop new performance measures to assess the timeliness and implementation of land use
plans.

Prior to our evaluation, Program officials had developed
four performance measures and submitted them to OMB               A focus on more outcome
for consideration. The OMB examiner accepted an                 oriented measures could help
efficiency measure in April 2007. However, by the time          gauge whether the agency is
we began our evaluation in June 2007, the OMB examiner          meeting its broader land use
and Program officials had not reached consensus on the                plan goals. Better
remaining three performance measures. Communication             performance measures could
between the two agencies and progress toward                        also help the program
development of any new mutually acceptable measures had          demonstrate sound business
stalled.                                                           practices (such as plans
                                                                      completed on-time
We facilitated meetings between the OMB examiner and                 and within budget).
BLM personnel to reopen discussion and work toward
development of mutually acceptable long-term                     Source: ExpectMore.gov
performance measures. The OMB examiner indicated that
the Program’s long-term and intermediate performance
measures should reflect Program outcomes, not just outputs. In addition, acceptable measures
                                              -5-
should demonstrate the effectiveness of the planning function by indicating how the results of
RMP implementation influence the next iteration of BLM’s planning cycle.

We agreed in principle with the examiner’s concerns. To satisfy PART requirements, federal
programs need a set of performance measures that includes specific outcomes, outputs, and at
least one significant efficiency measure. These performance measures should indicate results
broadly, and should generally be supported by more detailed measures within the agency. BLM
officials need to consider the following questions when developing new performance measures:

   •   Can the data be collected in a timely manner?
   •   Are mechanisms in place to assure accuracy of the data?
   •   Is there sufficient capacity within the Program to allow for adequate analysis of the data
       and to report reliable information?
   •   How will the information be used in the land use planning process?

In October 2007, after a series of discussions, Program officials drafted five new measures.
Listed below in Table 3, this new set of measures acknowledges a link between the planning
function and the achievement of BLM’s long-term outcome goals by using riparian area
conditions as a high-level indicator of overall land health. The measures also reflect the need for
State office-level implementation strategies; the need for maintenance and evaluation of all
RMPs; and the need for effective consultation with neighboring jurisdictions. In supporting
documentation provided to the examiner, Program officials have also shown how each measure
links to BLM’s existing policies and procedures, notably the Bureau’s Land Use Planning
Handbook.

       Table 3. New Proposed Land Use Planning Performance Measures
    Term          Type                                 Performance Measures

    Long                     Percent of resource management plans evaluated where significant
                Outcome
    Term                     progress is being made toward achieving riparian condition goals
                             Percent of resource management plans evaluated that are
    Long
                Outcome      maintained and/or amended to address changes in demands for the
    Term
                             use of the public lands
                             Percent of resource management plans evaluated that are
    Long
                Outcome      maintained and/or amended to address changes in the plans of
    Term
                             adjoining jurisdictions
                             Percent of resource management plans with an Implementation
   Annual        Output
                             Strategy
                             Percent of resource management plans evaluated within 5 years of
   Annual        Output
                             the Record of Decision
              Note: An annual efficiency measure — “Percent of Resource Management Plans completed within
                    4 years of start” — was previously submitted by BLM and accepted by OMB in April 2007.


                                                 -6-
The OMB examiner commended the progress that Program officials have made in developing
their performance measures. The parties were still discussing some minor revisions in the
wording of the measures or in the underlying definitions when OMB’s decision to discontinue
the anticipated PART review was communicated to DOI. Even though the Program is no longer
viewed as a stand-alone entity for PART purposes, we believe that these measures can still be
used — perhaps as supporting measures for other BLM programs subject to PART review, or
only for internal Bureau management purposes.

                                                                            OIG Suggestion 1
         BLM officials should continue their work on establishing new performance measures
                    and performance baselines. They should establish ambitious targets, link
                                these targets to managers’ performance plans, and document
                                                  data collection and verification procedures.

In addition to the joint meetings in which we discussed the Program’s performance measures, we
met with BLM and OMB representatives separately to determine their perspectives on
operational aspects of the planning process and the role of BLM’s Division of Planning and
Science Policy (“Washington Planning Office”). From our discussions, we determined that
Program personnel view the Washington Planning Office as fulfilling a facilitative role — a
limited area of responsibility centered on the provision of “rules and tools”. Although BLM’s
land use planning activities are referred to as a “Program,” BLM does not have a central
authority below the Bureau Director that is empowered to direct land use planning efforts.
Instead, the current structure is decentralized, with each State office director managing planning
activities and serving as the final approving authority for RMPs under their purview.

In contrast, the OMB examiner views the Washington Planning Office as having a more
substantial role, central to the work of other BLM sub-activities — such as recreation, grazing,
and energy — that participate in the development of individual RMPs. Land use planning serves
as the underpinning for BLM’s other programs, providing the foundation for the achievement of
outcome goals across the Bureau at the national level. From our discussions with the OMB
examiner, we have come to believe that she and others in OMB see an overarching role inherent
to the planning function — a role that entails the responsibility to oversee and coordinate all land
use planning activities.

We believe that this difference of opinion concerning the role of the Washington Planning Office
contributed significantly to delaying the development of mutually acceptable performance
measures.

                                                                          OIG Suggestion 2
          BLM management should clarify a) the role of the Division of Planning and Science
                 Policy in land use planning and b) the extent of the Division’s authority in
                               providing central oversight of the land use planning process.




                                                -7-
PROGRESS ON OMB’S SECOND PROGRAM IMPROVEMENT PLAN ACTION:
Develop an agency-wide monitoring strategy to identify data gaps and coordinate the
collection and reporting of key performance data.

OMB expects Program officials to systematically report on
RMP implementation as well as the effectiveness of these           The planning program plays
plans and to use the information derived from their                     an important role in
assessment to identify resource allocation priorities and         facilitating monitoring efforts
opportunities for improvement. BLM is developing a                 and tracking overall agency
national assessment, inventory, and monitoring (AIM)              progress toward its plan goals.
strategy to better manage the collection, storage, and use of
data for land use planning and management purposes.                  Improved land health data
                                                                     would allow the agency to
In support of this initiative, the Bureau has established a          properly evaluate whether
monitoring coordinator position and officials are working          it is meeting certain land use
to improve data collection processes that support the ability                plan goals.
to assess the overall health of public lands. They have
conducted planning sessions and working group meetings               Source: ExpectMore.gov
to draw upon the expertise of personnel within field offices,
State offices, and the Washington planning office. An
internal review report (currently in draft) recognizes that shortcomings exist in the integration of
appropriate data with the Bureau’s planning and budgeting processes. The draft report suggests
a need for landscape-level monitoring across sub-activities, rather than more restrictive
programmatic views. From our review of the draft report, the recommendations offered appear
to substantiate OMB’s PART results.

At this stage, the AIM strategy seems to be more conceptual than tangible in that there is as yet
no single document outlining specific objectives or delineating the means through which such
objectives will be achieved. However, we believe that when fully developed and implemented,
the strategy should provide the necessary framework for improved management of land health
information, enabling Program officials to identify and address information gaps and more
effectively communicate resource conditions to their senior leadership. Institutionalizing such a
strategy will require long-term commitment, leadership, and significant investment.

                                                                             OIG Suggestion 3
   BLM officials should continue their work in developing a monitoring strategy that provides
         the information necessary to track progress in implementing resource management
                  plans and to evaluate effectiveness in terms of resource condition outcomes.
                               Their strategy should be detailed cohesively in a document that
                                 outlines objectives, priorities, and the means to be employed.




                                                -8-
ADDITIONAL OPPORTUNITIES FOR IMPROVEMENT
Although the lack of acceptable performance measures ultimately triggered OMB’s designation
of the Program as Results Not Demonstrated, we believe Program officials should also address
a number of other issues. Specifically, we address partnership efforts, independent evaluation,
budget development, managerial performance appraisal, and cost efficiency.

                                       Partnership Efforts

                                      The creation of public, private, and interagency
      PART Question 2.5               partnerships can prove useful — not only in assisting with
   Do all partners … commit to        implementation of RMPs, but also in developing a more
   and work toward the annual         informed constituency. Continuing efforts toward working
     and/or long-term goals           with various BLM partners should enable the Bureau to
         of the program?              improve land use planning processes and the resulting
                                      RMPs.

Establishment and maintenance of partnerships could afford BLM opportunities to:

       •   increase communication and collaboration with interested groups;
       •   leverage base funds with private funding;
       •   foster a sense of stewardship in the management of public lands; and
       •   support local communities in community development efforts.

Where appropriate, partnership efforts should be documented with memoranda of agreement,
joint publications, or other records so that mutual goals and expectations can be clearly
communicated, and respective roles and contributions can be verified.

                                                                           OIG Suggestion 4
                                BLM officials should document collaborative efforts in order to
                                                better manage the Program’s key partnerships.




                                     Independent Evaluation

Evaluations of the Program should be of a sufficient quality, scope, and frequency to provide
information on the effectiveness of the entire Program rather than just certain aspects or selected
sites. For example, although BLM had contracted with a third party to conduct an evaluation of
the contracting process, OMB determined that the scope of this evaluation alone was too narrow
to satisfy PART requirements.


                                               -9-
BLM officials should keep in mind that the most significant aspect of the Program’s
effectiveness is its overall impact on the health of public lands. Monitoring land health is
critical, as the Bureau’s AIM strategy recognizes. However, monitoring outcomes alone will not
                                        differentiate the effects of BLM’s management actions
                                        from what would have occurred in the absence of the
         PART Question 2.6              Program. Third-party evaluations should be conducted
    Are independent evaluations         frequently — not only to validate the Program’s monitoring
   of sufficient scope and quality      efforts, but also to capture information about the Program’s
    conducted on a regular basis        impact on targeted outcomes. Independent evaluations can
       or as needed to support          also be used to provide Program officials with information
     program improvements and           needed to improve operational efficiency.
      evaluate effectiveness and
      relevance to the problem,         One approach that may be used as part of a broader
           interest, or need?           evaluation strategy may include expanded use of Resource
                                        Advisory Councils (RACs) to lend a degree of
         PART Question 4.5              independence to RMP evaluations. Twenty-five RACs
                                        have been established to represent the diverse opinions of
     Do independent evaluations
                                        various users of public lands in advising BLM on the
        of sufficient scope and
                                        preparation, amendment, and implementation of land use
       quality indicate that the
                                        and resource management plans. If Program officials elect
       program is effective and
                                        to use RACs as a means to evaluate RMPs, then adequate
           achieving results?
                                        documentation should be provided to explain the rationale
                                        and scope of RAC involvement in evaluative processes.

                                                                            OIG Suggestion 5
                    BLM officials should contract with an evaluation professional to work with
                             Resource Advisory Councils in developing an evaluation strategy
                                                   focused on the Bureau’s land use planning
                                                          and RMP implementation processes.



                                      Budget Development

                                      One way the Program is working to improve its resource
        PART Question 2.7             allocation process is through a pilot project in Arizona.
        Are budget requests           The pilot project is designed to support implementation
          explicitly tied to          strategies for RMPs at the field office level, while helping
      accomplishments of the          officials at the State office level to make budgetary
       annual and long-term           decisions that support that implementation in alignment
    performance goals, and are        with national priorities. The process integrates various
   the resource needs presented       considerations into the budget development and allocation
         in a complete and            process. These considerations include social and
     transparent manner in the        environmental changes; themes and priorities established
         program’s budget?            by Department and Bureau management; and field office
                                      project timelines and workload estimates.

                                               - 10 -
As part of the pilot project, BLM-Arizona officials developed a database application that
compiles 3- to 5-year budget projections. The database helps managers identify priority resource
management projects and resolve discrepancies between how work is prioritized in the field and
how the BLM budget funds these work priorities. Officials use associated workload analyses to
develop plans and establish mutually agreeable priorities between BLM and its partners. Use of
this database also helps to integrate priorities from BLM headquarters with work at the field
level. The methodology is designed to recognize the effects of capacity constraints and to
highlight the need to fund higher priorities, rather than allocating funds based solely on historical
trends.

Officials at all levels of the Bureau can view the long-range projections of budget and workload,
and shift resources as needed to achieve critical milestones, adjust project deadlines or other
milestones as appropriate, or postpone project starts until resources become available. The
process allows field offices and headquarters to reach a common understanding of what work
needs to be performed, when it will be performed, the consequences of the choices being made,
and where backlogs and other issues are likely to occur.

The overarching goal of this pilot program has been unification of workload and fiscal planning
data to enable Program officials to better align program priorities and funding. We believe that
expansion of the pilot project would improve the Bureau’s integration of budgetary processes
and performance planning.

                                                                              OIG Suggestion 6
              BLM officials should continue and expand efforts such as the BLM-Arizona pilot
                 project, to align priorities and funding at the national, state, and field levels.



                               Managerial Performance Appraisal

In the 2005 PART assessment, OMB indicated that performance appraisals for Program
                                     managers do not appear to be sufficiently linked to the
                                     broader Program goals or performance measures.
          PART Question 3.2          When new performance measures are in place, BLM
        Are Federal managers …       should be able to take appropriate actions to link
          held accountable for       individual performance appraisals to specific land use
           cost, schedule, and       planning targets. BLM officials will need to link
          performance results?       Program performance with personnel performance
                                     through the establishment of appropriate appraisal
                                     standards and clearly defined performance targets.

                                                                            OIG Suggestion 7
                                                  BLM should link new performance measures to
                                                           managerial performance appraisals.




                                               - 11 -
                                        Cost Efficiency

In 2005, the Program received an automatic “NO” in response to PART questions related to
efficiency because officials had not instituted an efficiency measure at the time of the PART
review. However, OMB did note that Program officials had made modest progress towards
improving efficiency in the areas of wildland fire management decision amendments and “e-
Planning”.

                                     In support of the President’s “E-Gov” initiative, BLM
       PART Question 3.4
                                     developed the “e-Planning” system, integrating several
      Does the program have          applications to manage, store, geographically reference,
     procedures … to measure         use, and reuse land use planning and NEPA documents.
      and achieve efficiencies       Phase I of the system was initiated in September 2007, and
     and cost effectiveness in       the system should be available to support 7 new planning
        program execution?           efforts in 2008.

       PART Question 4.3             Though we did not examine e-Planning project
        Does the program             management in detail, we believe that continued
      demonstrate improved           development and expansion of the e-Planning initiative
        efficiencies or cost         should not only reduce costs associated with the land use
    effectiveness in achieving       planning process, but also enable increased public access to
    program goals each year?         decision-making and enhanced collaboration with other
                                     land management agencies.

                                                                           OIG Suggestion 8
                         BLM should continue to develop e-Planning and other cost efficiency
                                    initiatives, and document efficiency gains in the process.




                                              - 12 -
                                        SUMMARY
Our evaluation evolved out of BLM’s need to demonstrate the impact of its land use planning
activities for purposes of the PART, and to institute changes to improve Program performance.
During the course of our evaluation, we worked with Program officials and the OMB examiner
to discuss the changes needed in the Program’s performance measures. The measures needed to
be more outcome-oriented, with an emphasis on land health as a means to better assess the
effectiveness of the Bureau’s planning and resource management processes. The measures also
needed to demonstrate a link from planning to implementation, and then to results. We believe
the new measures developed by BLM officials should satisfy these requirements. To complete
the process, Program officials must now begin to collect data, estimate performance baselines,
and establish targets for the future.

Other issues — such as working with partners, achieving cost efficiency, and developing a
monitoring strategy — are being addressed by BLM officials. Better documentation could prove
helpful in demonstrating the results of these efforts.

Finally, the role of BLM’s Division of Planning and Science Policy should be clarified and
perhaps further strengthened. Some degree of central oversight of the development, approval,
and evaluation of the Bureau’s resource management plans could provide greater accountability
and could foster further improvement in the planning process.




                                            - 13 -
                  APPENDIX A: HISTORY AND USE OF THE PART

Planning and performance In 1993, the Congress found federal managers to be
           monitoring are “disadvantaged in their efforts to improve program efficiency
          required by law and effectiveness, because of insufficient articulation of
                          program goals and inadequate information on program
                          performance.” The Government Performance and Results Act
                          (Public Law 103-62), or GPRA, was passed to promote a focus
                          on results by requiring federal agencies to engage in strategic
                          planning and performance reporting.

  Objectives and results of       The “President’s Management Agenda,” which includes a U.S.
     federal programs are         Government-wide initiative to improve budget and performance
   assessed during budget         integration, was published in 2001. The Agenda calls for
              formulation         agencies to monitor program performance and to incorporate
                                  performance review into budgetary decision-making.

                                  To support this initiative, the Office of Management and Budget
                                  (OMB) instituted a new activity within the context of budget
                                  formulation. OMB uses a standard questionnaire called the
                                  Program Assessment Rating Tool (PART) to engage federal
                                  programs in a review of program design, strategic planning,
                                  program management, and the achievement of results that
                                  demonstrate value for the taxpayer. Through the PART process,
                                  OMB rates programs as Effective, Moderately Effective,
                                  Adequate, or Ineffective. Alternatively, OMB deems programs
                                  that are unable to provide reliable performance information
                                  (thus precluding assignment of a program rating) Results Not
                                  Demonstrated and recommends establishment or improvement
                                  of mechanisms for performance measurement.

OMB has found that many Of the 74 DOI programs assessed between 2002 and 2007,
       DOI programs lack OMB rated only 8 programs (11 percent) Effective and placed
 performance information 16 programs (22 percent) in the category Results Not
                         Demonstrated. DOI programs assessed through the PART
                         process reflect over $9 billion dollars in annual budget
                         authority. Approximately one quarter of this spending is
                         associated with programs that lack reliable performance
                         information.




                              -
                                         Number
                                                   Percent of
       PART Ratings, 2002-2007             of
                                                   Programs
                                        Programs
 Effective                                  8          11
 Moderately Effective                      23          32
 Adequate                                  25          35
 Ineffective                                0           0
             Results Not Demonstrated      16          22
     TOTAL NUMBER OF PROGRAMS              72         100

PART findings can be used to 1) justify termination or
substantial curtailment of federal programs, 2) support
legislative or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its
ExpectMore.gov Web site, together with recommended
improvement actions for every program it has assessed. Agency
officials and program managers are expected to follow up on
these recommendations and to keep OMB, and ultimately the
public, apprised of progress through updates of the information
posted to ExpectMore.gov and through internal
communications. OMB then reassesses programs on schedules
developed in consultation with responsible agencies.
APPENDIX C: BUR
  APPENDIX B: BUREAU OF LAND MANAGEMENT, TABLE OF ORGANIZATION



                                Director


                          Headquarters Offices

  National Landscape           Fire and             Law Enforcement
  Conservation System       Aviation Policy           and Security

 Renewable Resources
    and Planning          Minerals, Realty, and   Information Resources
   Division of Planning   Resource Protection          Management
    and Science Policy

                             Human Capital            Business and
    Communication
                              Management            Fiscal Resources

                              State Offices


         Alaska                 Arizona                California



       Colorado                  Idaho                  Montana



        Nevada                New Mexico                 Oregon



          Utah                 Wyoming                Eastern States
       APPENDIX C: BLM RESOURCE MANAGEMENT PLANS
— REQUIRED STEPS FOR NEW PLANS, REVISIONS, AND AMENDMENTS —




                                     Source: BLM Land Use Planning Handbook
         APPENDIX D: PART QUESTIONS THAT ELICITED A NO ANSWER

                               PERFORMANCE MEASURES

PART Question 2.1: Does the program have a limited number of specific long-term
                   performance measures that focus on outcomes and meaningfully reflect
                   the purpose of the program?

PART Question 2.2: Does the program have ambitious targets and timeframes for its long-term
                   measures?

PART Question 2.3: Does the program have a limited number of specific annual performance
                   measures that can demonstrate progress toward achieving the program’s
                   long-term goals?

PART Question 2.4: Does the program have baselines and ambitious targets for its annual
                   measures?

PART Question 2.6: Are independent evaluations of sufficient scope and quality conducted on a
                   regular basis or as needed to support program improvements and evaluate
                   effectiveness and relevance to the problem, interest, or need?

PART Question 2.7: Are budget requests explicitly tied to accomplishment of the annual and
                   long-term performance goals, and are the resource needs presented in a
                   complete and transparent manner in the program’s budget?

PART Question 3.2: Are Federal managers and program partner’s (including grantees, sub-
                   grantees, contractors, cost-sharing partners, and other government
                   partners) held accountable for costs, schedule and performance results?

PART Question 4.1: Has the program demonstrated adequate progress in achieving its long-
                   term performance goals?

PART Question 4.2: Does the program (including program partners) achieve its annual
                   performance goals?

PART Question 4.5: Do independent evaluations of sufficient scope and quality indicate that
                   the program is effective and achieving results?
                                EFFICIENCY MEASURES
PART Question 3.4: Does the program have procedures (e.g. competitive sourcing/cost
                   comparisons, IT improvements, appropriate incentives) to measure and
                   achieve efficiencies and cost effectiveness in program execution?

PART Question 4.3: Does the program demonstrate improved efficiencies or cost effectiveness
                   in achieving program goals each year?
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
